MEMORANDUM


TO    : Donald Rappaport
          Chief Financial and Chief Information Officer


FROM : Jim Cornell
         Area Manager
         Washington Field Office

SUBJECT : Final Audit          Report:     Review    of   GAPS    Security     (ACN:
          A1180013)


This is our subject audit report covering the results of our security assessment of the
Department=s Grant Administration and Payment System (GAPS). The
objective of the review was to evaluate the security posture of the
GAPS automated payment processes, including the production
environment and associated information technology considerations
within the Department=s communication infrastructure.

The assessment identified a number of technical or procedural
security exposures which affect the overall security surrounding
the GAPS production environment. They are directed to you for your
action as either the Chief Financial Officer or the Chief
Information Officer. To assist you in your determination of the
relative significance of the review observations, we have
categorized them as to high, moderate or low risk. Many of the
exposures were discussed with the Office of Chief Financial Officer
(OCFO) officials and Department of Education Central Automated
Processing System (EDCAPS) contractor staff during the course of
the review.     Due to the sensitivity of the exposures and
recommendations identified during the review, we are not including
detailed information in this report.     That information will be
provided to you under separate cover.

Summary Findings

The review of GAPS security identified a number of opportunities
for the enhancement of     the overall security posture of the
production application and its operational platform. Improvements
can be made in the areas of security access control, security
option settings, audit trail controls, cash management, security
administration,   ensuring    accountability,   and    appropriate
segregation of developers from security and application functions.


Security Option Settings. The router and computer systems used
for the web server, and production GAPS database appeared to
utilize an excessive number of default settings. Use of default
settings without appropriate tailoring of the settings to the GAPS
environment could allow individuals inadvertent unauthorized access
to GAPS data and GAPS processes. In addition, other settings could
be strengthened to make the security posture stronger.

Audit Trail Controls.      During our review we noted several
opportunities for the GAPS development team to enhance the use of
audit trails and to limit the use of group user IDs. Audit trail
controls are the primary detective controls used to evidence a
series of events or transactions within an application. The use of
group user IDs can significantly reduce the effectiveness of
controls over user authentication and identification.      Stronger
audit trail controls should be implemented to protect the integrity
of the information processed through GAPS. In addition, the access
level of individual user IDs should be consistent with business
requirements due to the sensitive nature of the application.

Cash Management Controls. Our review found weaknesses in the
procedures with regard to certification of the use of Federal funds
drawn through GAPS. A combination of preventive and detective
controls are necessary to ensure adequate cash management of
Federal funds.    The use of a robust electronic signature-based
process or an interim manual signature procedure can provide the
Department with increased grantee accountability for Federal
funding requests.

Security Administration. Our review identified a significant
number of users that had been assigned to more than one user group,
which may have permitted excessive and/or incompatible access
levels to GAPS functionality.      Assignment of new user groups
responsibilities should be documented in a thorough manner to
substantiate the business need for the additional user group. In
addition, more specific procedures should be introduced to ensure
individual users do not belong to more than one user group, or if
necessary, documented as to the business reason of why the user
requires additional access and how this additional access will be
monitored.

General Security. Opportunities are present to improve general
security controls over the application and operational platform.
Page 3 - Mr. Donald Rappaport

 For example, limiting of access to GAPS user documentation and
processes to only those Internet users who are GAPS users;
enforcement of mandatory password changes for GAPS user IDs; and
automated techniques for ensuring external GAPS users are, in fact,
the users they represent themselves to be for accessing GAPS, are
the types of security improvements which can be made related to the
GAPS application. In addition, our review also noted a significant
number of ports within the communication infrastructure configured
with modem devices, presenting Aback door@ opportunities into the
Department=s network environment, including GAPS. Uncontrolled use
of modems within the Department   =s communication infrastructure
limits the effectiveness of protection provided by its firewalls
and routers.

Segregation of Duties. Our review identified several areas where
controls can be strengthened to ensure adequate separation of
duties within critical application functions.          Super-users,
developers, and managers are key individuals whose access should be
limited to affect an appropriate segregation of duties which
ensures compliance with OMB A-130, OMB A-127, and OMB A-123. Our
review identified what appeared to be an inordinate number of
super-user IDs and group IDs, given the nature of GAPS
functionality. Though privileged user IDs of these types provide
easy system access to troubleshooting the GAPS production
environment, they also limit the ability for system managers to
clearly identify and authenticate users with privileged access.
What We Recommend. We recommend that the OCFO take steps to
improve the overall security posture of the GAPS application and
related communication infrastructure by taking appropriate action
on the specific recommendations related to the high and moderate
risk observations included as an attachment to this report.
Determination   of    the   appropriate  action    should   include
consideration of the costs versus benefits, relative risk and any
compensating controls impacting each audit observation. We also
recommend that the low risk observations be given appropriate
attention in the OCFO=s overall security strategy.

Background

The Department is upgrading and streamlining its core management
work processes. This effort is known as EDCAPS. EDCAPS comprises
a suite of software packages, both off-the-shelf and custom
developed. It consists of the Financial Management System Software
(FMSS), the Contracts and Purchasing Support System (CPSS), GAPS,
and the Recipient System (RS).
Page 4 - Mr. Donald Rappaport

The GAPS production application is a client-server system that
includes both custom developed and commercial-off-the-shelf (COTS)
software.   GAPS makes use of Saros products, Plexus Flo Ware
(workflow system), Watermark (imaging), PowerBuilder (development),
and Cognos Impromptu (reporting). The various software components
in GAPS reside on servers and on client workstations located within
the ED Network (EDNET).    This review did not extend to reviewing
the security posture of Powerbuilder, Saros, or Cognos Impromptu.

Objective, Scope, and Methodology

The objective of our audit was to evaluate the security posture of
the GAPS automated payment processes. It did not include an
assessment of other components of EDCAPS, specifically, FMSS, CPSS,
and RS.   The review addressed the primary GAPS application and
associated servers; components that provide communication pathways;
and servers providing auxiliary processing.       We conducted our
fieldwork from June 1998 through August 1998, in accordance with
government auditing standards. The scope of the review consisted of
an assessment of 1) Infrastructure (Communications) Security, 2)
Computer Security, 3) Application Security, and 4) Operations
Security.   To identify security controls relevant to the GAPS
application, we interviewed responsible officials and operational
staff from the Department
                        =s EDCAPS-GAPS development team. We tested
controls and security features by interogating the communication
infrastructure and production environment using proprietary script
utilities.

Statement on Management Controls

As part of our review, we assessed the system of management
controls, policies, procedures, and practices applicable to the
automated GAPS payment processes. Our assessment was performed to
determine the security posture of GAPS. For the purpose of this
report, we limited our review to the assessment of the significant
controls over the automated grant payment functions. Because of
inherent limitations, a study and evaluation made for the limited
purpose described above would not necessarily disclose all material
weaknesses in the controls.    However, our assessment identified
methods to improve the security posture of the GAPS application. We
have recommended improvements to the controls by implementing
stronger security controls (both preventive and detective). These
weaknesses and their effects are fully described as an attachment
to this report.

Auditee Comments
Page 5 - Mr. Donald Rappaport


We provided the OCFO officials and the EDCAPS contractor staff with
preliminary findings and recommendations based upon the results of
our review at the end our fieldwork.        They were in general
agreement with the intent of the recommendations and plan to take
appropriate corrective action to mitigate the exposures.         In
addition, they expressed a strong interest toward working closely
with our review team to reach a mutually agreeable resolution to
correcting the underlying exposures.

                   *                   *                   *                   *

Please provide us with your final response to each open high and moderate risk recommendation
within 60 days of the date of this report indicating what corrective actions you have taken or plan,
and related milestones. The low risk observations are included as other
matters for your consideration, but do not require a response.

In accordance with Office of Management and Budget Circular A-50, we will keep this audit report
on the OIG list of unresolved audits until all open high and moderate issues have been resolved. Any
reports unresolved after 180 days from date of issuance will be shown as overdue in the OIG=s
Semiannual Report to Congress.

Please provide the Office of Chief Financial and Chief Information Officer / Financial Services Post
Audit Group and the Office of Inspector General / Planning, Analysis and Management Services Staff
with semiannual status reports on corrective actions until all such actions have been completed or
continued follow-up is unnecessary.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued by the Office
of Inspector General are available, if requested, to members of the press and the general public to the
extent information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation shown us by the EDCAPS project staffduring
this review.   Should you have any questions concerning this review,
please feel free to contact me on (202) 205-9538 or Brett Baker of
my staff on (202) 205-9744.

cc:      Paul Gilbreath
